APPENDIX

Supreme Court of Florida
____________
No. SC18-1133
____________
RODNEY RENARD NEWBERRY,
Appellant,
vs.
STATE OF FLORIDA,
Appellee.
December 12, 2019
PER CURIAM.
This case is before the Court on direct appeal from a resentencing.1 Rodney
Newberry appeals his sentence of death for the 2009 first-degree murder of Terrese
Pernell Stevens. For the reasons we explain, we affirm Newberry’s death sentence.
I. BACKGROUND
We set forth the following facts in Newberry’s first direct appeal:
On December 28, 2009, Defendant [Newberry] set
out to commit an armed robbery of a to-be-determined
member of the Jacksonville community who happened to
be located in whatever vulnerable circumstance provided
Defendant the most advantageous opportunity for gain.
Defendant was joined by James Phillips, who is
1. We have jurisdiction. See art. V, § 3(b)(1), Fla. Const.
Appendix A
App. 1

approximately eighteen (18) years Defendant’s junior,
and Robert Anderson, who is approximately seventeen
(17) years Defendant’s junior. Both Phillips and
Anderson claim to have participated in the scheme
because each feared Defendant. Further, each testified
that neither had any intention of joining Defendant in the
shooting and killing of any human being.
When the Defendant and his accomplices
assembled, Phillips had two firearms, an AK–47 and a
MAC–11. Defendant had his own gun, a .357 magnum.
Once in the car together, Defendant took possession of
the AK–47, along with his .357 magnum. Anderson had
the MAC–11. The three men proceeded to drive to the
desired location to begin their search. Phillips apparently
drove because he had a valid driver’s license.
Defendant, Phillips[,] and Anderson began
prowling Duval County in the area surrounding Myrtle
Avenue. After some time, and unable to find a suitable
victim to rob, Defendant suggested, and the others
agreed, to move their hunt to the region around Pearl
Street.
Tragically, at approximately 7:20 p.m. on that
fateful day, Terrese Pernell Stevens was spotted at Club
Steppin’ Out. When Defendant spotted Mr. Stevens’s car
in the parking lot, he told Phillips to stop the car.
Defendant directed Phillips to go inside the club, locate
Mr. Stevens, and “chirp” Defendant to let him know
when Mr. Stevens was leaving the club.
While Phillips was in the club, and before he
alerted Defendant, Defendant had Anderson move the
car. Anderson was in the driver’s seat when Defendant’s
phone chirped. He started the car and Defendant, sitting
in the front passenger seat and stretching his foot across
the car, pressed Anderson’s foot down on the gas pedal to
make the car go faster. Anderson stopped the car a few
feet from Mr. Stevens’s car. After [Anderson] parked the
car, Defendant got out of the car with the AK–47 and ran
to the driver’s side of Mr. Stevens’s car. Defendant
yelled at Mr. Stevens to “give it up, and if you make one
{explicative} move I’ll put it on my daddy that I’m going
App. 2

-2-

to kill you.” At that time, Anderson got out of the car
with the MAC–11 and stayed by the driver’s side, never
firing the gun. Without warning, and leaving Mr.
Stevens little or no time to comply with Defendant’s
demands, Defendant fired twelve shots from the AK–47
[after, as Anderson testified at trial, Mr. Stevens said
“please don’t, don’t, don’t, don’t kill me”]. Mr. Stevens
was killed.
Defendant got back in the car, and before Phillips
returned to the car, Anderson and Defendant drove
[away]. As they drove, Defendant offered Anderson
money that he took from Mr. Stevens. At first, Anderson
refused the money because it had blood on it, but
eventually he took $75.00 from Defendant. Phillips, who
stayed in the club when he heard the gunshots, left the
club after the police arrived. [After the shooting,
Phillips] called a friend for a ride, and [later met up with
Newberry and Anderson]. Both men gave Phillips
$20.00 of the money Defendant took from Mr. Stevens.
The owner of Club Steppin’ Out testified that she was inside the
club at the time of the shooting and, although she did not see the
shooting, she heard the gunshots and called the police. Law
enforcement officers who responded to the scene testified that the
victim was lying across the front seat of his vehicle and that they
recovered twelve 7.62 x 39 mm rifle casings from the scene. No
weapons were recovered by law enforcement.
In the months following the crime, Michelle Massey, who saw
Newberry, Phillips, and Anderson with guns earlier in the day on the
day of the murder and whose phone Newberry was using on the day
of the murder, assisted police with obtaining information that led to
Newberry being charged with the victim’s murder. Prior to
Newberry’s trial, Anderson and Phillips both pled guilty to seconddegree murder and armed robbery for their roles in the crime.
Anderson also pled guilty to possession of a firearm by a convicted
felon. Neither had been sentenced at the time of Newberry’s trial, at
which they both testified that Newberry shot the victim.
Newberry v. State, 214 So. 3d 562, 563-65 (Fla. 2017) (alterations in original)
(footnotes omitted) (quoting trial court’s order).
App. 3

-3-

The jury found Newberry “guilty of first-degree premeditated and felony
murder and armed robbery and further found that Newberry ‘discharged a firearm
causing death or great bodily harm during the commission of the offense.’ ” Id. at
565. This Court “affirm[ed] the conviction but vacate[d] the death sentence and
remand[ed] for a new penalty phase,” concluding that “Newberry’s [first] death
sentence violate[d] Hurst[2].” Id. at 563, 567.
During the second penalty phase proceeding, the State presented the
testimony of thirteen witnesses in addition to four victim impact witnesses. Four
of the witnesses presented were the victims of Newberry’s four prior violent
felonies. 3 Further, the State presented certified copies of Newberry’s prior
convictions. The State also presented photographs of Mr. Stevens, the victim in
this case, as a child and as an adult with his family.

2. Hurst v. Florida, 136 S. Ct. 616 (2016); Hurst v. State, 202 So. 3d 40
(Fla. 2016).
3. Newberry’s four prior violent felony convictions stem from three
different incidents. First, Newberry pled nolo contendere to the aggravated battery
of a victim he shot six times. Second, Newberry pled nolo contendere to the
aggravated assault of his former girlfriend and mother of his four children. Third,
Newberry was convicted of the attempted first-degree murder of two police
officers, both of whom Newberry shot. Newberry’s crimes against the police
officers occurred after Newberry murdered Mr. Stevens, the victim in this case,
when the officers attempted to approach Newberry on the street for a purpose
unrelated to Mr. Stevens’s murder. Newberry was tried and convicted for the
crimes against the police officers before he was tried for Mr. Stevens’s murder.
App. 4

-4-

The defense presented the testimony of six witnesses, including Newberry’s
former girlfriend and mother of his four children (and also the victim of one of
Newberry’s prior violent felonies), Newberry’s cousin, Newberry’s daughters, and
two expert witnesses. In addition, the defense introduced photos of Newberry with
his family, as well as cards he sent to family members while he was incarcerated,
and Newberry’s school records. Further, the defense presented the judgment and
sentence forms for the convictions of Robert Anderson and James Phillips for their
roles in Mr. Stevens’s murder.
The defense presented the expert testimony of Dr. Stephen Bloomfield. Dr.
Bloomfield, an expert in forensic and clinical psychology, testified that
Newberry’s capacity to appreciate the criminality of his conduct or to conform his
conduct to the requirements of the law was substantially impaired. Dr. Bloomfield
also testified that Newberry achieved full-scale IQ scores of 66 and 65. Dr.
Bloomfield further testified that he reviewed Newberry’s school records, which
revealed that Newberry had achieved a full-scale IQ score of 81 when he was eight
years old. Dr. Bloomfield explained that he “wasn’t able to diagnose [Newberry]
as intellectually disabled because he had an 81 IQ as a child, and the criteria for
intellectual disability requires an IQ “less than 71 or 72, has to have low adaptive
behaviors and it has to all be before the age of 18.” Dr. Bloomfield acknowledged
that Newberry is able to function in society, including maintaining a job. He also

App. 5

-5-

testified that Newberry was competent at the time of the crime but “is still
intellectually impaired.”
The defense also presented the expert testimony of Dr. Steven Gold, a
psychologist who specializes in trauma psychology. Dr. Gold testified that he had
no reason to believe that Newberry was not able to appreciate the criminality of his
conduct. Dr. Gold also testified that Newberry was able to conform his conduct to
the requirements of the law. When asked if he was aware of Dr. Bloomfield’s
opinion that Newberry is not able to appreciate the criminality of his conduct or
conform his conduct to the requirements of the law, Dr. Gold responded that he did
not share that opinion in terms of Newberry’s traumatization.
The State presented rebuttal evidence through the testimony of a former
homicide detective who interviewed Newberry related to the investigation of
Newberry’s prior violent felonies involving the attempted first-degree murder of
two police officers.
At the conclusion of the second penalty phase, the jury unanimously found
the State proved the following aggravating circumstances beyond a reasonable
doubt: (1) Newberry was previously convicted of a felony involving the use or
threat of violence to the person; (2) Newberry committed the capital felony while
he was engaged in the commission of, or an attempt to commit, a robbery; and (3)
Newberry committed the capital felony for pecuniary gain. The jury unanimously

App. 6

-6-

found that the aggravating factors were sufficient to warrant a death sentence.
Following the interim standard jury instructions at the time of the second penalty
phase proceeding set forth in In re Standard Criminal Jury Instructions in Capital
Cases, 214 So. 3d 1236, 1239-40 (Fla. 2017) 4 (authorizing proposed jury
instructions for publication on an interim basis in light of Hurst), Newberry’s jury
also made specific findings as to each of the proposed mitigating circumstances in
the verdict form. The jury unanimously found Newberry failed to establish by the
greater weight of the evidence any of his argued mitigating circumstances. The
jury also unanimously concluded the aggravating factors outweighed the mitigating
circumstances argued by Newberry. The jury ultimately and unanimously
concluded that Newberry should be sentenced to death.
At the subsequent Spencer5 hearing, no additional witnesses testified, but the
defense presented Newberry’s medical records pertinent to Dr. Gold’s testimony.
In its sentencing order, the trial court made its own findings with respect to the
aggravation and mitigation. Specifically, the trial court assigned the following
statutory aggravating circumstances great weight: (1) prior violent felony based on

4. Subsequently, in In re Standard Criminal Jury Instructions in Capital
Cases, 244 So. 3d 172, 174 (Fla. 2018), this Court removed the requirement of the
jury to list the mitigating circumstances found or to provide the jury vote as to the
existence of mitigating circumstances.
5. Spencer v. State, 615 So. 2d 688 (Fla. 1993).
App. 7

-7-

Newberry’s prior violent felony convictions, and (2) in the course of a robbery
merged with pecuniary gain. The trial court found that “the aggravating factors are
sufficient to warrant the death penalty.”
The trial court further considered the two statutory mitigating circumstances:
(1) the capacity of Newberry to appreciate the criminality of his conduct or to
conform his conduct to the requirements of the law, and (2) the existence of any
other factors in Newberry’s background that would mitigate against imposition of
the death penalty. As to the first, the trial court found that Newberry failed to
establish this mitigating circumstance. The second “catch all” statutory mitigating
circumstance contained thirty-six proposed mitigating circumstances with the trial
court’s conclusions relevant to each detailed parenthetically: (1) Newberry was
raised by both his mother and his father (established but not mitigating); (2)
Newberry’s mother and father believed in discipline but not abuse (established but
not mitigating); (3) Newberry’s father and mother were married until the day his
father died in 1999 (established but not mitigating); (4) Newberry’s father’s death
had a great impact on Newberry (established but not mitigating); (5) Newberry’s
mother was a housewife and raised all eight Newberry children (established but not
mitigating); (6) Newberry is the youngest of eight children born to his parents
(established but not mitigating); (7) Newberry was polite to his teachers (not
established); (8) Newberry loves his family (established but not mitigating); (9)

App. 8

-8-

Newberry’s family loves him (established but not mitigating); (10) Newberry had
trouble in school (established but not mitigating); (11) Newberry and his siblings
were allowed to stay in the family home until they were ready to leave (not
established); (12) Newberry left the family home at twenty years old (established
but not mitigating); (13) Newberry will never be released from prison if he is
sentenced to life without the possibility of parole (accurate but not mitigating);
(14) Newberry is immature mentally and emotionally (established, slight weight);
(15) Newberry participated in an Exceptional Student Program, required an
Individualized Education Program in grade school, and was placed in special
classes for students with behavioral problems (established but not mitigating); (16)
Newberry took special education classes in high school (not established); (17)
Newberry is kind to his elders (established but not mitigating); (18) Newberry is
very giving of what he has (not established); (19) Newberry is protective of his
family and friends (established but not mitigating); (20) Newberry is depressed
(established but not mitigating); (21) Newberry has children and grandchildren
(established but not mitigating); (22) Newberry has four children with the same
woman and loves his children, and his children love him (established but not
mitigating); (23) Newberry has poor impulse control, and this was exacerbated by
alcohol and drug use (established but not mitigating); (24) Newberry, in the past,
has demonstrated concern for others and is not selfish (established but not

App. 9

-9-

mitigating); (25) Newberry is respectful (not established); (26) Newberry believes
in God, is a Christian, and considers himself to be devoutly religious (established
but not mitigating); (27) Newberry was short-tempered before age thirteen
(established but not mitigating); (28) Newberry had difficulty completing tasks that
require concentration (not established); (29) Newberry had repeated trouble with
school authorities during his elementary school years (established but not
mitigating); (30) Newberry is a loyal friend (established but not mitigating); (31)
Newberry was the victim of violence (established but not mitigating); (32)
Newberry suffers from post-traumatic stress disorder (established but not
mitigating); (33) Newberry suffers from a low IQ (established, slight weight); (34)
Newberry is intellectually impaired (established, moderate weight); (35)
codefendants Robert Anderson and James Phillips received sentences of twentyfive years in prison following entering pleas of guilty to second-degree murder for
the murder of Mr. Stevens (established but not mitigating); and (36) Newberry
acted under the direction of James Phillips who coordinated the armed robbery of
Mr. Stevens (not established). The trial court also reviewed each remaining
statutory mitigating circumstance and found that Newberry “did not present any
evidence to support these other statutory mitigating circumstances.”
Ultimately, the trial court sentenced Newberry to death, finding that the
aggravating circumstances heavily outweighed the mitigating circumstances. The

App. 10

- 10 -

trial court stated that “the jury’s recommendation for the death penalty is consistent
with its verdict and based on the evidence presented is well-reasoned.” The trial
court “wholly agree[d] with the jury’s unanimous recommendation based on an
assessment of the aggravating circumstances and mitigating circumstances
presented.”
II. ANALYSIS
Now on appeal from the second penalty phase, Newberry raises the
following claims: (A) the trial court committed fundamental error by failing to
instruct the jury that it must determine beyond a reasonable doubt the sufficiency
of the aggravating factors and whether they outweighed the mitigating
circumstances; (B) the trial court erred in determining that the impaired capacity
mitigating circumstance had not been proven; (C) the trial court failed to give
sufficient consideration to Newberry’s proposed mitigating circumstances; (D) the
trial court erred in ruling that five mitigators were proven but “not mitigating”; (E)
Newberry’s death sentence is not proportionate; and (F) the trial court erred in
denying Newberry’s motion to bar imposition of the death penalty due to
intellectual impairment. We address each claim in turn.
A. Sufficiency of the Jury Instructions During the Penalty Phase
Newberry first argues that the trial court erred in failing to instruct the jury
that it must determine beyond a reasonable doubt whether the aggravating factors

App. 11

- 11 -

were sufficient to justify the death penalty and whether those factors outweighed
the mitigating circumstances. Newberry concedes that he failed to request the jury
instruction but claims that the trial court’s failure to instruct on the beyond a
reasonable doubt standard of proof constitutes fundamental error. However, we
have held that these determinations are not subject to the beyond a reasonable
doubt standard of proof. See Rogers v. State, 44 Fla. L. Weekly S208, S212 (Fla.
Sept. 5, 2019) (“[T]hese determinations are not subject to the beyond a reasonable
doubt standard of proof, and the trial court did not err in instructing the jury.”).
Accordingly, we conclude that the trial court did not err in instructing the jury.
B. Impaired Capacity Mitigating Circumstance
Next, Newberry argues that the trial court erred in concluding that the
impaired capacity mitigating circumstance had not been proven. Specifically,
Newberry argues that no competent, substantial evidence refuted Dr. Bloomfield’s
testimony that Newberry’s capacity to appreciate the criminality of his conduct or
to conform his conduct to the requirements of law was substantially impaired. We
disagree.
Here, the trial court’s rejection of the impaired capacity mitigating
circumstance is supported by competent, substantial evidence. During the second
penalty phase proceeding, two experts, Dr. Bloomfield and Dr. Gold, testified on
behalf of the defense. First, Dr. Bloomfield testified that the capacity of Newberry

App. 12

- 12 -

to appreciate the criminality of his conduct or to conform his conduct to the
requirements of law was substantially impaired. To the contrary, Dr. Gold testified
that he found no reason to believe Newberry could not appreciate the criminality of
his conduct at the time of Mr. Stevens’s murder or conform his conduct to the
requirements of law. Accordingly, the trial court’s finding that the impaired
capacity mitigating circumstance had not been proven was supported by Dr. Gold’s
expert witness testimony and therefore was supported by competent, substantial
evidence.
Further, this Court has upheld a trial court’s rejection of a mental health
mitigating circumstance when a defendant’s purposeful actions during and after the
crime indicated that he was aware of the criminality of his conduct. See Hoskins v.
State, 965 So. 2d 1, 18 (Fla. 2007) (concluding that the trial court properly rejected
the defendant’s inability “to appreciate the criminality of his or her conduct” as
mitigation where, after raping the victim, “Hoskins’s purposeful actions in binding
and gagging [the victim] before placing her in the trunk, driving to his parents’
home six hours away, borrowing a shovel, driving to a remote area where he killed
[the victim], and then telling his brother he hit a possum when blood was noticed
dripping from the rear wheel well [were] indicative of someone who knows his
conduct is wrong”); Nelson v. State, 850 So. 2d 514, 531 (Fla. 2003) (concluding
that the defendant’s “purposeful actions [were] indicative of someone who knew

App. 13

- 13 -

those acts were wrong and who could conform his conduct to the law if he so
desired”).
Here, the trial court’s finding regarding the impaired capacity mitigating
circumstance is supported by evidence related to the purposefulness of Newberry’s
actions. Specifically, as the trial court explained:
The jury heard testimony from Robert Anderson who
participated along with James Phillips in Mr. Steven’s murder.
According to Anderson, Defendant asked and paid Anderson’s mother
to use her car the night of the murder. Anderson testified Defendant
was the leader that night as they drove around looking for someone to
rob. Anderson further testified the men were only going to rob
someone without any “murder or shooting.” Anderson explained
Defendant directed them to go to Club Steppin’ Out where Stevens
would be. When they got there, according to Anderson who was
behind the wheel, Phillips, went in the club to alert the others when
Stevens was leaving. Anderson said that when the alert came that
Stevens was exiting the club, Defendant told Anderson to “crank up
the car.” Anderson recounted that as he drove across the street to the
club at a slow pace, Defendant put his foot on top of Anderson’s foot
that was on the gas pedal and pushed Anderson’s foot down to speed
up the car. When the car stopped, Defendant “hopped out of the car
with an AK-47,” demanded Stevens give it up, and then shot Stevens
multiple times.
Accordingly, we reject this argument.
C. Sufficiency of the Sentencing Order
Newberry generally claims that the trial court failed to thoughtfully and
comprehensively analyze twenty-five proposed mitigating circumstances in
accordance with this Court’s decision in Campbell v. State, 571 So. 2d 415, 419-20
(Fla. 1990), receded from on other grounds by Trease v. State, 768 So. 2d 1050,
App. 14

- 14 -

1055 (Fla. 2000), failed to articulate why those mitigating circumstances were “not
mitigating,” and instead summarily disposed of them.
Contrary to Newberry’s argument, the sentencing order here does expressly
evaluate each proposed mitigating circumstance. Further, in our recent decision in
Rogers, 44 Fla. L. Weekly at S213-14, we clarified that our decision in Campbell
did not impose a requirement that a trial court expressly and specifically articulate
why the evidence presented warranted only the allocation of a certain weight to a
mitigating circumstance. We receded from Oyola v. State, 99 So. 3d 431 (Fla.
2012), “to the extent that it employed a requirement that a trial court expressly
articulate why the evidence presented warranted the allocation of a certain weight
to a mitigating circumstance.” Rogers, 44 Fla. L. Weekly at S214. Accordingly,
Newberry’s claim is without merit.
D. Consideration of Five Mitigating Circumstances
Next, Newberry argues the trial court erred when it found five mitigating
circumstances were established but “not mitigating.” Specifically, Newberry
contends the trial court considered five mitigating circumstances not mitigating as
a matter of law. We reject this argument.
In the present case, the jury unanimously found Newberry failed to establish
by the greater weight of the evidence any of his argued mitigating circumstances.
Further, the trial court found the following proposed mitigating circumstances to

App. 15

- 15 -

be established but “not mitigating”: (1) Newberry struggles with depression; (2)
Newberry’s ineligibility for parole if sentenced to life in prison; (3) Newberry’s
placement in special education classes as a child; (4) Newberry’s loving
relationship with his family; and (5) Newberry’s poor impulse control.
Accordingly, it is apparent that the trial court considered each of the mitigating
circumstances proposed by Newberry and determined that such circumstances
were in fact not mitigating and assigned them no weight. There is no indication
that the trial court abused its discretion. See Hoskins, 965 So. 2d at 18-19
(concluding that the trial court did not abuse its discretion in failing to attach “real
weight” to the mitigating evidence); see also Coday v. State, 946 So. 2d 988, 1003
(Fla. 2006) (“[E]ven where a mitigating circumstance is found a trial court may
give it no weight when that circumstance is not mitigating based on the unique
facts of the case.”). Therefore, we reject Newberry’s argument.
E. Proportionality
Newberry also argues that his death sentence is disproportionate because his
case is among neither the most aggravated nor the least mitigated of first-degree
murder cases. To ensure uniformity of sentencing in death penalty proceedings,
this Court considers the totality of circumstances and compares each case with
other capital cases; we do not simply compare the number of aggravating and
mitigating circumstances. Taylor v. State, 937 So. 2d 590, 601 (Fla. 2006).

App. 16

- 16 -

“Further, in a proportionality analysis, this Court will accept the weight assigned
by the trial court to the aggravating and mitigating factors.” Hayward v. State, 24
So. 3d 17, 46 (Fla. 2009). “In performing a proportionality review, a reviewing
court must never lose sight of the fact that the death penalty has long been reserved
for only the most aggravated and least mitigated of first-degree murders.” Urbin v.
State, 714 So. 2d 411, 416 (Fla. 1998).
Here, the trial court assigned the following statutory aggravating
circumstances great weight: (1) prior violent felony based on Newberry’s prior
violent felony convictions, and (2) in the course of a robbery merged with
pecuniary gain. While the jury unanimously found Newberry failed to establish by
the greater weight of the evidence any of his argued mitigating circumstances, the
trial court found that twenty-six of the mitigating circumstances were established
but not mitigating, found that Newberry failed to establish seven of the mitigating
circumstances, and assigned slight weight to two mitigating circumstances
(Newberry suffers from a low IQ and Newberry is immature mentally and
emotionally) and moderate weight to one mitigating circumstance (Newberry is
intellectually impaired).
We have found the death sentence proportionate in other robbery-murder
cases with similar aggravation and mitigation. See, e.g., McLean v. State, 29 So.
3d 1045, 1052 (Fla. 2010) (death penalty proportionate in shooting robbery-murder

App. 17

- 17 -

where the trial court found the aggravators of felony probation, prior violent felony
(including a prior armed robbery conviction), and during the course of a robbery;
the two statutory mental health mitigating circumstances; and several nonstatutory
mitigating circumstances, including brain injury, poor grades in school, family
problems, and substance abuse); Hayward, 24 So. 3d at 46-47 (death penalty
proportionate in shooting robbery-murder where the trial court found the
aggravators of prior violent felony (based on three prior violent felonies, including
second-degree murder) and in the course of a robbery merged with pecuniary gain;
no statutory mitigators; and several nonstatutory mitigators, including that the
defendant had academic problems, grew up without a father, was loved by his
family, would make a good adjustment in prison, and had some capacity for
rehabilitation); Blake v. State, 972 So. 2d 839, 846-50 (Fla. 2007) (death penalty
proportionate in attempted-robbery and shooting murder where the trial court
found aggravators of prior violent felony, felony probation, and in the course of
attempted armed robbery merged with pecuniary gain; statutory age mitigator; and
several nonstatutory mitigators, including never displayed violence in the presence
of his family, was a good son, and formed a loving relationship with his family;
was remorseful for his conduct; cooperated with deputies at the time of his arrest;
and adjustment to confinement and institutional living and no danger to the
community at large if incarcerated for life); Pope v. State, 679 So. 2d 710, 716

App. 18

- 18 -

(Fla. 1996) (death penalty proportionate in robbery-murder where the trial court
found aggravators of prior violent felony and pecuniary gain; two statutory mental
health mitigating circumstances; and three nonstatutory mitigating circumstances,
including the defendant was intoxicated at the time of the offense).
Therefore, we conclude that Newberry’s death sentence is proportionate.
F. Intellectual Impairment Claim
As his final claim, Newberry argues that we should extend the application of
Atkins v. Virginia, 536 U.S. 304 (2002), to individuals who are not intellectually
disabled but are intellectually impaired. However, this Court has consistently
rejected claims to extend Atkins beyond intellectual disability. See, e.g., McCoy v.
State, 132 So. 3d 756, 775 (Fla. 2013) (rejecting claim that mental illness bars
execution under Atkins); Simmons v. State, 105 So. 3d 475, 510-11 (Fla. 2012)
(rejecting claim that persons with mental illness must be treated similarly to those
with an intellectual disability due to reduced culpability); Lawrence v. State, 969
So. 2d 294, 300 n.9 (Fla. 2007) (rejecting claim that “the Equal Protection Clause
requires this Court to extend Atkins to the mentally ill”). Accordingly, we
conclude that the trial court did not err in denying Newberry’s motion to bar
imposition of the death penalty due to intellectual impairment.
III. CONCLUSION
Based upon the reasons stated above, we affirm Newberry’s death sentence.

App. 19

- 19 -

It is so ordered.
CANADY, C.J., and POLSTON, LABARGA, LAWSON, and MUÑIZ, JJ.,
concur.
NOT FINAL UNTIL TIME EXPIRES TO FILE REHEARING MOTION AND,
IF FILED, DETERMINED.
An Appeal from the Circuit Court in and for Duval County,
Adrian G. Soud, Judge - Case No. 162012CF009296AXXXMA
Andy Thomas, Public Defender, and Richard M. Bracey, III, Assistant Public
Defender, Second Judicial Circuit, Tallahassee, Florida,
for Appellant
Ashley Moody, Attorney General, and Michael T. Kennett, Assistant Attorney
General, Tallahassee, Florida,
for Appellee

App. 20

- 20 -

Supreme Court of Florida
TUESDAY, FEBRUARY 11, 2020
CASE NO.: SC18-1133
Lower Tribunal No(s).:
162012CF009296AXXXMA
RODNEY RENARD NEWBERRY

vs.

Appellant(s)

STATE OF FLORIDA
Appellee(s)

Appellant’s Motion for Rehearing is hereby denied.
CANADY, C.J., and POLSTON, LABARGA, LAWSON, and MUÑIZ, JJ.,
concur.
A True Copy
Test:

kc
Served:
MICHAEL T. KENNETT
RICHARD M. BRACEY III
HON. ADRIAN GENTRY SOUD, JUDGE
HON. RONNIE FUSSELL, CLERK
HON. MARK H. MAHON, CHIEF JUDGE
CHRISTOPHER ROTH HUBAND

Appendix B
App. 21

Filing # 86911608 E-Filed 03/25/2019 03:08:48 PM

RECEIVED, 03/25/2019 03:24:38 PM, Clerk, Supreme Court

IN THE SUPREME COURT OF FLORIDA
_____________________
:
RODNEY RENARD NEWBERRY,
:
Appellant,
:
v.
Case No. SC18-1133
:
STATE OF FLORIDA,
:
Appellee.
:
_____________________
On Appeal from the Circuit Court of the Fourth Judicial Circuit in
and for Duval County, Florida
_____________________
INITIAL BRIEF OF APPELLANT
____________________
Andy Thomas
Public Defender
Second Judicial Circuit
Richard M. Bracey, III
Assistant Public Defender
Florida Bar No. 76419
Leon County Courthouse
301 S. Monroe St., Suite 401
Tallahassee, Florida 32301
(850) 606-1000
mose.bracey@flpd2.com
Counsel for Appellant

Appendix C
App. 22

TABLE OF CONTENTS
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . v
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
I.

Prior Proceedings.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

II.

Proceedings Below.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

STATEMENT OF THE FACTS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
I.

II.

Underlying Facts Generally Relevant to the Appeal.. . . . . . . . . . . . . . . . . . . 7
A.

Robbery/shooting incident. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

B.

Newberry’s background and character.. . . . . . . . . . . . . . . . . . . . . . . 10

C.

Additional developments at trial. . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

Underlying and Procedural Facts Particularly Relevant to Issues Raised. . 18
A.

Motion to bar imposition of death.. . . . . . . . . . . . . . . . . . . . . . . . . . . 18

B.

Final jury instructions. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

C.

Trial court’s sentencing order.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

SUMMARY OF THE ARGUMENT. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
ARGUMENT.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
I.

Reversible Error Occurred When the Court Failed To Instruct the Jury To
Determine Beyond a Reasonable Doubt Whether the Aggravating Factors Were
Sufficient and Outweighed the Mitigating Circumstances Because Those
Determinations Are the Functional Equivalents of Elements, the Court
Overlooked Perry v. State, and the Error Was Fundamental.. . . . . . . . . . . . 27
App. 23

i

A.

Determinations as to (1) whether the aggravating factors are sufficient
to justify the death penalty, and (2) whether those factors outweigh the
mitigating circumstances must be made beyond a reasonable doubt
because they are the functional equivalents of elements. . . . . . . . . . 27

1.

Determinations as to both elements and their functional equivalents must
be made beyond a reasonable doubt. . . . . . . . . . . . . . . . . . . . . . . . . . 28

2.

Under Florida’s capital sentencing scheme, determinations as to (1)
whether the aggravating factors are sufficient to justify the death
penalty, and (2) whether those factors outweigh the mitigating
circumstances are the functional equivalents of elements because they
increase the penalty for first-degree murder.. . . . . . . . . . . . . . . . . . . 30

(a)

In ascertaining which determinations increase the penalty for a crime,
the appropriate analysis concerns the operation and effect of the
statutory scheme at issue.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31

(b)

Determinations as to whether the aggravating factors are sufficient and
outweigh the mitigating circumstances increase the penalty for firstdegree murder beyond the maximum sentence that may be imposed
solely on the basis of determinations that (1) the victim is dead, (2) the
defendant caused the death, (3) the killing was premeditated or
committed during a felony, and (4) aggravating factor(s) exist. . . . . 31

(c)

The United States Supreme Court’s reasoning in Ring v. Arizona
reinforces that determinations as to whether the aggravating factors are
sufficient and outweigh the mitigating circumstances increase the
penalty for first-degree murder.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36

(d)

In its post-Hurst v. Florida jurisprudence, this Court has repeatedly
indicated that, under Florida’s capital sentencing scheme, determinations
as to whether the aggravating factors are sufficient and outweigh the
mitigating circumstances are the functional equivalents of elements . .
.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39

3.

Instructing the jury to determine beyond a reasonable doubt whether the
aggravating factors are sufficient and outweigh the mitigating
circumstances furthers interests underlying the constitutional

App. 24

ii

requirement of proof beyond a reasonable doubt, such as reliability,
fairness, and confidence in the criminal law. . . . . . . . . . . . . . . . . . . 40
B.

This Court indicated in Perry v. State that determinations as to (1)
whether the aggravating factors are sufficient to justify the death
penalty, and (2) whether those factors outweigh the mitigating
circumstances must be made beyond a reasonable doubt.. . . . . . . . . 43

C.

The court’s failure to instruct the jury to determine beyond a reasonable
doubt (1) whether the aggravating factors were sufficient to justify the
death penalty, and (2) whether those factors outweighed the mitigating
circumstances amounted to fundamental error.. . . . . . . . . . . . . . . . . 44

II.

Reversible Error Occurred When the Court Concluded the Impaired Capacity
Mitigating Circumstance Had Not Been Proven Because No Competent,
Substantial Evidence Refuted Dr. Bloomfield’s Testimony That Newberry’s
Capacity Was Substantially Impaired. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49

III.

Reversible Error Occurred When the Court Found Twenty-five Mitigating
Circumstances Established But “Not Mitigating” Because, Rather Than
Thoughtfully and Comprehensively Analyzing Those Circumstances, the Court
Summarily Addressed and Disposed of Them. . . . . . . . . . . . . . . . . . . . . . . 56

IV.

Reversible Error Occurred When the Court Found Five Particular Mitigating
Circumstances Established But “Not Mitigating” Because, as a Matter of Law,
Those Circumstances Are Mitigating in Nature. . . . . . . . . . . . . . . . . . . . . . 61

V.

Newberry’s Death Sentence Is a Disproportionate Punishment Because His
Case Is Among Neither the Most Aggravated Nor the Least Mitigated of Firstdegree Murder Cases.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 65

VI.

Reversible Error Occurred When the Court Denied Newberry’s Motion To Bar
Imposition of the Death Penalty Because the Eighth Amendment Forbids
Imposing Death on Offenders Who Are “Intellectually Impaired” at the Time
of the Offense. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 70
A.

App. 25

The Eighth Amendment categorically forbids imposing death on
offenders who are intellectually impaired at the time of the offense. . .
.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 71
iii

1.

Objective indicia of society’s standards indicate an emerging national
consensus against imposing death on offenders who are intellectually
impaired at the time of the offense. . . . . . . . . . . . . . . . . . . . . . . . . . . 72

2.

Under standards elaborated by United States Supreme Court precedent,
imposing death on offenders who are intellectually impaired at the time
of the offense violates the Eighth Amendment.. . . . . . . . . . . . . . . . . 74

B.

This Court should reconsider its prior decisions addressing claims
relatively similar to Newberry’s claim. . . . . . . . . . . . . . . . . . . . . . . . 77

CONCLUSION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 77
CERTIFICATE OF SERVICE. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 80
CERTIFICATE OF FONT AND TYPE SIZE.. . . . . . . . . . . . . . . . . . . . . . . . . . . . 80

App. 26

iv

ARGUMENT
I.

Reversible Error Occurred When the Court Failed To Instruct the Jury
To Determine Beyond a Reasonable Doubt Whether the Aggravating
Factors Were Sufficient and Outweighed the Mitigating Circumstances
Because Those Determinations Are the Functional Equivalents of
Elements, the Court Overlooked Perry v. State, and the Error Was
Fundamental.
In the present case, it is clear the court failed to instruct the jury to determine

beyond a reasonable doubt (1) whether the aggravating factors were sufficient to
justify the death penalty, and (2) whether those factors outweighed the mitigating
circumstances. [R1 623, 626; R2 1344, 1350] Thus, the initial issue in dispute is
whether, under Florida’s capital sentencing scheme, those determinations must be
made beyond a reasonable doubt.
But it is also clear Newberry failed to request the necessary jury instruction.
[R2 1098-1166] Thus, even if those determinations must be made beyond a
reasonable doubt, an additional issue in dispute is whether the court’s failure to
provide the necessary instruction amounted to fundamental error.
That said, under Florida’s capital sentencing scheme, determinations as to
whether the aggravating factors are sufficient and outweigh the mitigating
circumstances must be made beyond a reasonable doubt. This Court indicated as
much in Perry, 210 So.3d at 630. Further, the court’s failure to provide the necessary
instruction amounted to fundamental error.
A.
App. 27

Determinations as to (1) whether the aggravating factors are
27

sufficient to justify the death penalty, and (2) whether those factors
outweigh the mitigating circumstances must be made beyond a
reasonable doubt because they are the functional equivalents of
elements.
As an initial matter, it is well-established that determinations as to both
elements and their “functional equivalents” must be made beyond a reasonable doubt.
With that in mind, under Florida’s capital sentencing scheme, determinations as to
whether the aggravating factors are sufficient and outweigh the mitigating
circumstances are the functional equivalents of elements because they increase the
penalty for first-degree murder. Moreover, instructing the jury to make those
determinations beyond a reasonable doubt furthers interests underlying the
constitutional requirement of proof beyond a reasonable doubt, such as reliability,
fairness, and confidence in the criminal law.
1.

Determinations as to both elements and their functional equivalents
must be made beyond a reasonable doubt.

The United States Supreme Court has elaborated on the relationship between
the Due Process Clause and the Sixth Amendment.
It is self-evident [that the] requirement of proof beyond a
reasonable doubt and the Sixth Amendment requirement of a jury
verdict are interrelated. It would not satisfy the Sixth Amendment to
have a jury determine that the defendant is probably guilty, and then
leave it up to the judge to determine . . . whether he is guilty beyond a
reasonable doubt. In other words, the jury verdict required by the Sixth
Amendment is a jury verdict of guilty beyond a reasonable doubt.
Sullivan v. Louisiana, 508 U.S. 275, 278 (1993).

App. 28

28

Thus, “[t]aken together,” the Due Process Clause requirement of proof beyond
a reasonable doubt and the Sixth Amendment right to jury trial “indisputably entitle
a criminal defendant to ‘a jury determination that [he] is guilty of every element of
the crime with which he is charged beyond a reasonable doubt.’” Apprendi v. New
Jersey, 530 U.S. 466, 476-77 (2000) (quoting United States v. Gauldin, 515 U.S. 506,
510 (1995)) (emphasis added).
But the “safeguards of due process are not rendered unavailing simply because
a determination may already have been reached that would stigmatize the defendant
and might lead to a significant impairment of personal liberty.” Mullaney v. Wilbur,
421 U.S. 684, 698 (1975). More specifically, “due process and associated jury
protections extend, to some degree, ‘to determinations that [go] not to a defendant’s
guilt or innocence, but simply to the length of his sentence.’” Apprendi, 530 U.S. at
484. And those protections apply to “[c]apital defendants, no less than noncapital
defendants.” Ring v. Arizona, 536 U.S. 584, 589 (2002).
All that being the case, any circumstance that gives rise to “an increase beyond
the maximum authorized statutory sentence . . . is the functional equivalent of an
element of a greater offense than the one covered by the jury’s guilty verdict.”
Apprendi, 530 U.S. at 494 n.19 (emphasis added). In short, “[a]ny fact that, by law,
increases the penalty for a crime is an ‘element’ that must be submitted to the jury and
found beyond a reasonable doubt.” Alleyne v. United States, 570 U.S. 99, 102 (2013);

App. 29

29

see also Apprendi, 530 U.S. at 490.
2.

Under Florida’s capital sentencing scheme, determinations as to (1)
whether the aggravating factors are sufficient to justify the death
penalty, and (2) whether those factors outweigh the mitigating
circumstances are the functional equivalents of elements because they
increase the penalty for first-degree murder.

As an initial matter, in ascertaining which determinations increase the penalty
for a crime, the appropriate analysis concerns the operation and effect of the statutory
scheme at issue. With that in mind, under Florida’s scheme, determinations as to
whether the aggravating factors are sufficient and outweigh the mitigating
circumstances increase the penalty for first-degree murder beyond the maximum
sentence that may be imposed solely on the basis of determinations that (1) the victim
is dead, (2) the defendant caused the death, (3) the killing was premeditated or
committed during a felony, and (4) aggravating factor(s) exist.
In short, solely on the basis of those four determinations, the maximum
sentence is life without parole. At the same time, determinations that the aggravating
factors are sufficient and outweigh the mitigating circumstances increase the penalty
for first-degree murder from life without parole to death.
The United States Supreme Court’s reasoning in Ring reinforces that point.
Further, in its post-Hurst v. Florida jurisprudence, this Court has repeatedly indicated
that, under Florida’s capital sentencing scheme, the determinations at issue are the
functional equivalents of elements.

App. 30

30

(a)

In ascertaining which determinations increase the penalty for a crime,
the appropriate analysis concerns the operation and effect of the
statutory scheme at issue.

In ascertaining which determinations increase the penalty for a crime, “the
characterization of a fact or circumstance as an ‘element’ or a ‘sentencing factor’ is
not determinative.” Ring, 536 U.S. at 605. Instead, the appropriate analysis “looks
to the operation and effect of the law as applied and enforced by the state.’”
Mullaney, 421 U.S. at 699. Thus, “the relevant inquiry is one not of form, but of
effect–does the required finding expose the defendant to a greater punishment than
that authorized by the jury’s guilty verdict?” Apprendi 530 U.S. at 494.
(b)

Determinations as to whether the aggravating factors are sufficient and
outweigh the mitigating circumstances increase the penalty for firstdegree murder beyond the maximum sentence that may be imposed
solely on the basis of determinations that (1) the victim is dead, (2) the
defendant caused the death, (3) the killing was premeditated or
committed during a felony, and (4) aggravating factor(s) exist.

“[T]he ‘statutory maximum’ for Apprendi purposes is the maximum sentence
[that may be] impose[d] solely on the basis of the facts reflected in the jury verdict.”
Blakely v. Washington, 542 U.S. 296, 303 (2004). “In other words, the relevant
‘statutory maximum’ is not the maximum sentence [that may be] impose[d] after
finding additional facts, but the maximum [that may be] impose[d] without any
additional findings.” Id. at 303-04.
Applying those principles to Florida’s capital sentencing scheme,
determinations as to whether the aggravating factors are sufficient and outweigh the
App. 31

31

mitigating circumstances increase the penalty for first-degree murder beyond the
maximum sentence that may be imposed solely on the basis of determinations that (1)
the victim is dead, (2) the defendant caused the death, (3) the killing was
premeditated or committed during a felony, and (4) aggravating factor(s) exist.
As an initial matter, Florida statutes lay out the following capital sentencing
scheme. To establish first-degree murder, the following elements must be proven:
(1) the victim is dead, (2) the death was caused by the defendant, and (3) the killing
was premeditated or committed during a felony. See § 782.04(1)(a), Fla. Stat. (2017);
see also Fla. Std. Jury Instrs. (Crim) 7.2, 7.3 (2017). And first-degree murder is a
“capital felony, punishable as provided in s. 775.082.” § 782.04(1)(a).
Section 775.082, in turn, provides that “a person who has been convicted of a
capital felony shall be punished by death if the proceeding held to determine sentence
according to the procedure set forth in s. 921.141 results in a determination that such
person shall be punished by death, otherwise such person shall be punished by” life
without parole. § 775.082(1)(a), Fla. Stat. (2017) (emphasis added).
And, in relevant part, section 921.141 provides:
(2) FINDINGS AND RECOMMENDED SENTENCE BY THE JURY.
...
(a) After hearing all of the evidence presented regarding aggravating
factors and mitigating circumstances, the jury shall deliberate and
determine if the state has proven, beyond a reasonable doubt, the
existence of at least one aggravating factor . . . .
(b) The jury shall return findings identifying each aggravating factor
found to exist. A finding that an aggravating factor exists must be
App. 32

32

unanimous. If the jury:
1. Does not unanimously find at least one aggravating factor, the
defendant is ineligible for a sentence of death.
2. Unanimously finds at least one aggravating factor, the defendant is
eligible for a sentence of death and the jury shall make a
recommendation to the court as to whether the defendant shall be
sentenced to life imprisonment without the possibility of parole or to
death. The recommendation shall be based on a weighing of all the
following:
a. Whether sufficient aggravating factors exist.
b. Whether aggravating factors exist which outweigh the mitigating
circumstances found to exist.
c. Based on the considerations in sub-subparagraphs a. and b., whether
the defendant should be sentenced to life imprisonment without parole
or to death.”
§ 921.141(2), Fla. Stat. (2017).
Further, this Court has addressed how Florida’s capital sentencing scheme
operates in effect. More specifically, in Perry,8 this Court explicitly addressed
section 921.141. 210 So.3d at 637. And this Court concluded that, under section
921.141, “to increase the penalty from a life sentence to a sentence of death, the jury
must unanimously find the existence of any aggravating factor, that the aggravating
factors are sufficient to warrant a sentence of death, [and] that the aggravating factors
outweigh the mitigating circumstances.” Id. at 640 (emphasis added).
This Court also noted that “the State still [had] to establish the same elements
as were previously required under the prior statute.” Id. at 638. And, in the context
8

In relevant part, the sentencing scheme addressed by this Court in Perry is identical
to the scheme under which Newberry was sentenced to death below. Compare §
775.082(1), Fla. Stat. (2016) and § 921.141, Fla. Stat. (2016) with § 775.082(1), Fla.
Stat. (2017) and § 921.141, Fla. Stat. (2017).
App. 33

33

of addressing that prior statute, this Court had earlier stressed: “before a sentence of
death may be considered by the trial court in Florida, the jury must find the existence
of the aggravating factors proven beyond a reasonable doubt, that the aggravating
factors are sufficient to impose death, and that the aggravating factors outweigh the
mitigating circumstances.” Hurst v. State, 202 So.3d 40, 53 (Fla. 2016) (emphasis
added).
Moreover, the standard second-phase jury instructions and verdict form9
reinforce the operative effect of Florida’s capital sentencing scheme. In short, those
instructions inform the jury that it must determine whether aggravating factor(s) exist.
Fla. Std. Jury Instr. (Crim) 7.11 (2018). They also instruct the jury that, if it finds
such factor(s), it must engage in a weighing process after making additional findings.
Id. And those additional findings include (1) whether the aggravating factors are
sufficient to justify the death penalty, and (2) whether those factors outweigh the
mitigating circumstances. Id.
Most critically, the standard verdict form requires the jury to document its
determinations as to whether (1) aggravating factor(s) exist, (2) those factors are
sufficient, and (3) they outweigh the mitigating circumstances. Fla. Std. Jury Instr.
(Crim) 3.12(e) (2018). And that form expressly informs the jury that, absent any of

9

In relevant part, the jury instructions and verdict form used below, [R1 622-26, 111929], are identical to the standard second-phase jury instructions and verdict form. See
Fla. Std. Jury Instrs. (Crim) 3.12(e), 7.11 (2018).
App. 34

34

those determinations, the only possible sentence is life without parole. Id. In fact,
the section pertaining to whether the aggravating factors outweigh the mitigating
circumstances is titled “D. Eligibility for the Death Penalty for Count ___.” Id.
(emphasis added).
With all that in mind, assume a jury determines beyond a reasonable doubt that
(1) the victim is dead, (2) the defendant caused the death, (3) the killing was
premeditated or committed during a felony, and (4) aggravating factor(s) exist. Based
solely on those determinations, what is the maximum authorized punishment?
Again, the appropriate analysis “‘looks to the operation and effect of the law
as applied and enforced by the state.’” Mullaney, 421 U.S. at 699. And “the relevant
inquiry is one not of form, but of effect.” Apprendi 530 U.S. at 494.
That being the case, consider the effect of Florida’s capital sentencing scheme
as applied and enforced. Section 782.04 states first-degree murder is a “capital
felony.” But it explicitly cross-references section 775.082. Section 775.082, in turn,
establishes that the maximum punishment for first-degree murder is life without
parole unless “the proceeding held to determine sentence according to the procedure
set forth in s. 921.141 results in a determination that [a person convicted of firstdegree murder] shall be punished by death,” § 775.082(1)(a).
And section 921.141(2)(b)2. states: if “at least one aggravating factor [exists],
the defendant is eligible for a sentence of death.” But it then requires the jury to

App. 35

35

make additional determinations, including whether the aggravating factors are
sufficient and outweigh the mitigating circumstances, before a sentence of death may
be considered.
Moreover, as applied and enforced, the procedure set forth in section 921.141
results in the following effect: “to increase the penalty [for first-degree murder] from
a life sentence to a sentence of death, the jury must unanimously find the existence
of any aggravating factor, that the aggravating factors are sufficient to warrant a
sentence of death, [and] that the aggravating factors outweigh the mitigating
circumstances.” Perry, 210 So.3d at 640. Stated differently, a defendant convicted
of first-degree murder is not eligible for the death penalty until all of those
determinations are made.
All that being the case, on the basis of determinations that (1) the victim is
dead, (2) the defendant caused the death, (3) the killing was premeditated or
committed during a felony, and (4) aggravating factor(s) exist, “the ‘statutory
maximum’ for Apprendi purposes,” Blakely, 542 U.S. at 303, is life without parole.
At the same time, determinations as to whether the aggravating factors are sufficient
and outweigh the mitigating circumstances “expose the defendant to a greater
punishment than that authorized by” the first four determinations, Apprendi, 530 U.S.
at 494.
(c)

The United States Supreme Court’s reasoning in Ring v. Arizona
reinforces that determinations as to whether the aggravating factors are

App. 36

36

sufficient and outweigh the mitigating circumstances increase the
penalty for first-degree murder.
In Ring, Arizona argued: “Ring was convicted of first-degree murder, for which
Arizona law specifies ‘death or life imprisonment’ as the only sentencing options, see
Ariz. Rev. Stat. Ann. § 13-1105(C) (West 2001); Ring was therefore sentenced within
the range of punishment authorized by the jury verdict.” 536 U.S. at 603-04.
But the Court rejected that argument. Id. at 604. It reasoned:
The Arizona first-degree murder statute “authorizes a maximum penalty
of death only in a formal sense,” for it explicitly cross-references the
statutory provision requiring the finding of an aggravating circumstance
before imposition of the death penalty. See § 13-1105(C) (“First degree
murder is a class 1 felony and is punishable by death or life
imprisonment as provided by § 13-703.” (emphasis added)). If Arizona
prevailed on its . . . argument, Apprendi would be reduced to a
“meaningless and formalistic” rule of statutory drafting.
Id. at 604 (some internal citations omitted).
In Ring, Arizona essentially argued: first-degree murder is “punishable by
death or life imprisonment,” Ariz. Rev. Stat. Ann. § 13-1105(C), and thus, the death
penalty may be imposed on any defendant convicted of first-degree murder. In the
present case, two similar arguments could be made.
The first: first-degree murder is a “capital felony,” § 782.04(1)(a), and thus, the
death penalty may, by definition, be imposed on any defendant convicted of a firstdegree murder. The second: if “at least one aggravating factor [exists], the defendant
is eligible for a sentence of death,” § 921.141(2), and thus, the death penalty may be

App. 37

37

imposed on any defendant convicted of first-degree murder where aggravating
factor(s) exist.
But, in Ring, section 13-1105(C) explicitly cross-referenced section 13-703.
And section 13-703 “requir[ed] the finding of an aggravating circumstance before
imposition of the death penalty.” Ring, 536 U.S. at 604. Similarly, in the present
case, section 782.04 explicitly cross-references section 775.082, which then explicitly
cross-references section 921.141. And section 921.141 requires at least the finding
of an aggravating factor before imposition of the death penalty. As a result, though
section 782.04 declares first-degree murder a “capital felony,” it “‘authorizes a
maximum penalty of death only in a formal sense.’”
That said, section 921.141 requires more than just the finding of an aggravating
factor before imposition of the death penalty.

In Ring, the cross-referenced

provision–section 13-703–provided that, in addition to finding “one or more
aggravating circumstances,” the court had to determine whether “there are no
mitigating circumstances sufficiently substantial to call for leniency.” Ariz. Rev. Stat.
Ann. § 13-703(F) (West 2001). In contrast, section 921.141 provides that, in addition
to finding “at least one aggravating factor,” the jury must determine (1) whether
“sufficient aggravating factors exist,” and (2) whether “aggravating factors exist
which outweigh the mitigating circumstances found to exist.” § 921.141(2), Fla. Stat.
And that difference between the Arizona and Florida statutes is critical. Under

App. 38

38

the former, once an aggravating factor was determined to exist, the additional
determination concerned whether “mitigating circumstances sufficiently substantial
to call for leniency” existed. In other words, once an aggravating factor was
determined to exist, the maximum penalty increased from life without parole to death,
and the subsequent determination simply concerned whether to be lenient and impose
a penalty less than the maximum.
In contrast, under the Florida statute, once an aggravating factor is determined
to exist, the additional determinations concern whether “sufficient aggravating factors
exist” and whether “aggravating factors exist which outweigh the mitigating
circumstances found to exist.” But those latter determinations do not simply concern
whether to be lenient and impose a penalty less than the maximum. Instead, they
concern whether to increase the maximum penalty from life without parole to death
in the first place. As a result, though section 921.141(2)(b)2. declares a defendant
“eligible” for death “if at least one aggravating factor” exists,” it also “‘authorizes
a maximum penalty of death only in a formal sense.’”
With all that in mind, as was the case with Arizona’s argument in Ring, if either
of the two arguments discussed above prevailed in the present case, “Apprendi would
be reduced to a ‘meaningless and formalistic’ rule of statutory drafting,” Ring, 536
U.S. at 604.
(d)

App. 39

In its post-Hurst v. Florida jurisprudence, this Court has repeatedly
indicated that, under Florida’s capital sentencing scheme,
39

determinations as to whether the aggravating factors are sufficient and
outweigh the mitigating circumstances are the functional equivalents of
elements.
As previously mentioned, this Court stressed in Hurst v. State that, before the
death penalty could be considered, the jury had to determine (1) whether at least one
aggravating factor existed, (2) whether the aggravating factors are sufficient, and (3)
whether those factors outweigh the mitigating circumstances. 202 So.3d at 53.
Immediately thereafter, this Court stated: “all these findings necessary for the jury to
essentially convict a defendant of capital murder–thus allowing imposition of the
death penalty–are also elements.” Id. at 53-54. And this Court subsequently
reiterated: “these findings occupy a position on par with elements of a greater
offense.” Id. at 57.
Moreover, in Asay v. State, this Court indicated that, in determining whether
Hurst v. Florida should apply retroactively, this Court would “treat the aggravators,
the sufficiency of the aggravating circumstances, [and] the weighing of the
aggravating circumstances against the mitigating circumstances as elements of the
crime that needed to be found by the jury to the same extent as other elements of the
crime.” 210 So.3d 1, 15-16 (Fla. 2016).
3.

Instructing the jury to determine beyond a reasonable doubt whether
the aggravating factors are sufficient and outweigh the mitigating
circumstances furthers interests underlying the constitutional
requirement of proof beyond a reasonable doubt, such as reliability,
fairness, and confidence in the criminal law.

App. 40

40

In addressing the constitutional requirement of proof beyond a reasonable
doubt, the United States Supreme Court has “emphasized the societal interests in the
reliability of jury verdicts.” Mullaney, 421 U.S. at 699. And those interests are even
greater where the death penalty is concerned because the “qualitative difference
between death and other penalties calls for a greater degree of reliability when the
death sentence is imposed.” Lockett v. Ohio, 438 U.S. 586, 604 (1978) (plurality
opinion).
Further, the Court has explained that the beyond-a-reasonable-doubt standard
promotes fairness by requiring the factfinder to reach a subjective state of certitude
as to the elementary determinations at issue.
The accused during a criminal prosecution has at stake interest of
immense importance, both because of the possibility that he may lose his
liberty upon conviction and because of the certainty that he would be
stigmatized by the conviction. . . . “Where one party has at stake an
interest of transcending value–as a criminal defendant his liberty–th[e]
margin of error is reduced as to him by the process of placing on the
other party the burden of . . . persuading the factfinder at the conclusion
of the trial of his guilt beyond a reasonable doubt. . . .” To this end, the
reasonable-doubt standard is indispensable, for it “impresses on the trier
of fact the necessity of reaching a subjective state of certitude of the
facts in issue.”
In re Winship, 397 U.S. 358, 363-64 (1970) (internal citations omitted).
In addition, the Court has made clear that the beyond-a-reasonable-doubt
standard increases the wider community’s confidence in the criminal law by requiring
such a state of subjective certitude.

App. 41

41

Moreover, use of the reasonable-doubt standard is indispensable
to command the respect and confidence of the community in application
of the criminal law. It is critical that the moral force of the criminal law
not be diluted by a standard of proof that leaves people in doubt whether
innocent men are being condemned. It is also important in our free
society that every individual going about his ordinary affairs have
confidence that his government cannot adjudge him guilty of a criminal
offense without convincing a proper factfinder of his guilt with utmost
certainty.
Id. at 364.
Applying those principles here, instructing the jury to determine beyond a
reasonable doubt whether the aggravating factors are sufficient and outweigh the
mitigating circumstances furthers the interests underlying the constitutional
requirement of proof beyond a reasonable doubt. First, such an instruction promotes
reliability by decreasing the odds that a defendant not deserving death would be
condemned to that punishment.
Second, a beyond-a-reasonable-doubt instruction advances fairness by reducing
the margin of error as to a capital defendant, who has at stake the most extraordinary
interest of all–his or her life. Finally, such an instruction increases confidence in the
criminal law by assuring the wider community that a defendant condemned to death
deserved that punishment.
For all these reasons, determinations as to whether the aggravating factors are
sufficient and outweigh the mitigating circumstances should be conditioned on the
jury reaching a subjective state of certitude. More specifically, under Florida’s

App. 42

42

capital sentencing scheme, the jury should be instructed to make those determinations
beyond a reasonable doubt.
B.

This Court indicated in Perry v. State that determinations as to (1)
whether the aggravating factors are sufficient to justify the death
penalty, and (2) whether those factors outweigh the mitigating
circumstances must be made beyond a reasonable doubt.

In Perry, this Court stated: “in cases in which the penalty phase jury is not
waived, the findings necessary to increase the penalty from a mandatory life sentence
to death must be found beyond a reasonable doubt by a unanimous jury.” 210 So.3d
at 633 (citing Hurst v. State, 202 So.3d at 44-45) (emphasis added). Immediately
thereafter, this Court noted: “Those findings specifically include . . . all aggravating
factors to be considered, . . . that sufficient aggravating factors exist for the
imposition of the death penalty, [and] that the aggravating factors outweigh the
mitigating circumstances.” Id. And this Court later affirmed: “we construe section
921.141(2)(b)2. to require the penalty phase jury to unanimously find beyond a
reasonable doubt that each aggravating factor exists, that sufficient aggravating
factors exist to impose death, and that they outweigh the mitigating circumstances
found to exist.” Id. at 639 (original emphasis omitted).
That said, this Court has since amended Florida Standard Criminal Jury
Instruction 7.11. See In re Standard Criminal Jury Instructions in Capital Cases, 244
So.3d 172 (Fla. 2018). And, in doing so, this Court did not include instructions that
the jury should determine beyond a reasonable doubt whether the aggravating factors
App. 43

43

are sufficient and outweigh the mitigating circumstances. See Fla. Std. Jury Instr.
(Crim) 7.11 (2018).
But, in “authorizing the publication and use” of amended Florida Standard
Criminal Jury Instruction 7.11., this Court expressed “no opinion on their
correctness.” In re Standard Criminal Jury Instructions in Capital Cases, 244 So.3d
at 174. Further, omitting the relevant beyond-a-reasonable-doubt instruction was
inconsistent with the response and proposals offered by the Supreme Court
Committee on Standard Jury Instructions in Criminal Cases. See Standard Jury
Instruction Committee’s Response to the Court’s Death Penalty Jury Instructions and
To Comments at 7, 14-15, 18-19, 21-22, In re Standard Criminal Jury Instructions
in Capital Cases, 244 So.3d at 172. It was also inconsistent with the comments
offered by other interested parties. See Amended Comments of the Handling Capital
Cases Faculty at 4, id.; Comments of the Florida Public Defender Association at 5-7,
id.; Comments of the Florida Center for Capital Representation at FIU College of
Law and Florida Association of Criminal Defense Lawyers at 1-2, id.
C.

The court’s failure to instruct the jury to determine beyond a
reasonable doubt (1) whether the aggravating factors were sufficient
to justify the death penalty, and (2) whether those factors
outweighed the mitigating circumstances amounted to fundamental
error.

“‘In its narrowest functional definition, ‘fundamental error’ describes an error
that can be remedied on direct appeal, even though the appellant made no

App. 44

44

contemporaneous objection in the trial court and, thus, the trial judge had no
opportunity to correct the error.’” Maddox v. State, 760 So.2d 89, 95 (Fla. 2000).
“The reason that courts correct error as fundamental despite the failure of parties to
adhere to procedural rules requiring preservation is not to protect the interests of a
particular aggrieved party, but rather to protect the interests of justice itself.” Id. at
98.
Generally speaking, “‘in order to be of such fundamental nature as to justify a
reversal in the absence of timely objection the error must reach down into the validity
of the trial itself to the extent that a verdict of guilty could not have been obtained
without the assistance of the alleged error.’” F.B. v. State, 852 So.2d 226, 229 (Fla.
2003). “Thus, an error is deemed fundamental ‘when it goes to the foundation of the
case or the merits of the cause of action and is equivalent to a denial of due process.’”
Id.
Those general principles apply in particular fashion in the context of
fundamental errors in jury instructions. As an initial matter, this Court “‘has long
held that defendants have a fundamental right to have a Court correctly and
intelligently instruct the jury on the essential and material elements of the crime
charged.’” Milton v. State, 161 So.3d 1245, 1250-51 (Fla. 2014). But “‘fundamental
error occurs only when the omission [of a jury instruction] is pertinent or material to
what the jury must consider in order to convict.’” Daugherty v. State, 211 So.3d 29,

App. 45

45

39 (Fla. 2017).
With that in mind, when “evaluating fundamental error [related to jury
instructions], there is a difference ‘between a disputed element of a crime and an
element of a crime about which there is no dispute in the case.’” Id. But “whether
evidence of guilt is overwhelming or whether the prosecutor has or has not made an
inaccurate instruction a feature of the prosecution’s argument are not germane to
whether the error is fundamental.” Reed v. State, 837 So.2d 366, 369 (Fla. 2002).
Instead, fundamental error occurs if “the element is disputed.” Id.
Finally, “‘[f]undamental error is not subject to harmless error review.’”
Ramroop v. State, 214 So.3d 657, 665 (Fla. 2017). “‘By its very nature, fundamental
error has to be considered harmful.’” Id.
Applying those standards here, the court’s failure to instruct the jury to
determine beyond a reasonable doubt whether the aggravating factors were sufficient
and outweighed the mitigating circumstances “reach[ed] down into the validity of the
trial itself to the extent that [the determination that Newberry should be sentenced to
death] could not have been obtained without the assistance of” the court’s failure,
F.B., 852 So.2d at 229. Put another way, the court’s failure went “to the foundation
of the case or the merits of the cause of action and [was] the equivalent to a denial of
due process,” id. See discussion supra pp. 27-43.
In more concrete terms, to conclude that Newberry should be sentenced to

App. 46

46

death, the jury had to determine (1) whether the aggravating factors were sufficient
to justify the death penalty, and (2) whether those factors outweighed the mitigating
circumstances. And the omission of an instruction that those determinations had to
be made beyond a reasonable doubt reduced the burden of proof. As a result, the
omission was “‘pertinent or material to what the jury must consider in order to
convict,’” Daugherty, 211 So.3d at 39.
Further, the determinations as to whether the aggravating factors were
sufficient and outweighed the mitigating circumstances were disputed. At the
conclusion of the trial below, the State argued aggravating factors existed; they were
entitled to great weight; and they outweighed any mitigating circumstances. [R2
1282-1309] In response, Newberry argued any aggravating factors were not entitled
to great weight, and further, any such factors were outweighed by the mitigating
circumstances. [R2 1315-34] In short, this case turned on whether the aggravating
factors were sufficient and outweighed the mitigating circumstances.
This Court’s decision in Reed, 837 So.2d at 366, dictates a conclusion that the
court’s failure to instruct the jury to determine beyond a reasonable doubt whether the
aggravating factors were sufficient and outweighed the mitigating circumstances
amounted to fundamental error. There, the court failed to instruct the jury as to the
proper definition of malice for purposes of aggravated child abuse. Id. at 368. As a
result, the State only had to prove that Reed acted “‘wrongfully, intentionally, without

App. 47

47

legal justification or excuse,’” rather than with “‘ill will, hatred, spite, an evil intent.’”
Id.
On appeal, this Court concluded that the trial court’s failure to instruct the jury
to determine whether Reed acted with ill will, hatred, spite, or evil intent amounted
to fundamental error. Id. at 369. This Court reasoned:
Because the inaccurate definition of malice reduced the State’s burden
of proof, the inaccurate definition is material to what the jury had to
consider to convict the petitioner. Therefore, fundamental error
occurred in the present case if the inaccurately defined term
“maliciously’ was a disputed element in the trial of this case.
Id. This Court subsequently observed: “The record in the present case demonstrates
that the malice element was disputed at trial.” Id. at 370.
Like the failure to properly define “malice” in Reed, the failure to instruct the
jury here to determine beyond a reasonable doubt whether the aggravating factors
were sufficient and outweighed the mitigating circumstances reduced the State’s
burden of proof. In fact, the failure here reduced that burden far more than the failure
there. Thus, if the failure there was material to what the jury had to consider, the
failure here was as well.
Further, like the element in Reed concerning whether “malice” existed, the
elements here concerning whether the aggravating factors were sufficient and
outweighed the mitigating circumstances were disputed at trial. As a result, if
fundamental error occurred in Reed, it did here as well.

App. 48

48

The trial court failed to instruct the jury to make all the determinations that
increase the penalty for first-degree murder beyond a reasonable doubt. Newberry’s
death sentence violates his rights to trial by jury and due process. Amends. V, VI,
XIV, U.S. Const.; Art. I, §§ 9, 16, 22, Fla. Const.
II.

Reversible Error Occurred When the Court Concluded the Impaired
Capacity Mitigating Circumstance Had Not Been Proven Because No
Competent, Substantial Evidence Refuted Dr. Bloomfield’s Testimony
That Newberry’s Capacity Was Substantially Impaired.
Competent, substantial evidence is evidence “‘sufficiently relevant and material

that a reasonable mind would accept it as adequate to support the conclusion
reached.’” Dausch v. State, 141 So.3d 513, 517-18 (Fla. 2014). With that in mind,
this Court has elaborated on the standard of review applicable to a trial court’s
findings concerning mitigating circumstances:
The trial court must find a mitigating circumstance if it “has been
established by the greater weight of the evidence.” “However, a trial
court may reject a proposed mitigator if the mitigator is not proven or if
there is competent, substantial evidence to support its rejection.” When
expert evidence is presented, it “may be rejected if that evidence cannot
be reconciled with the other evidence in the case.” Trial judges have
broad discretion in considering unrebutted expert testimony; however,
the rejection of the expert testimony must have a rational basis, such as
conflict with other evidence, credibility or impeachment of the witness,
or other reasons.
Williams v. State, 37 So.3d 187, 204 (Fla. 2010) (internal citations omitted); see also
Coday v. State, 946 So.2d 988, 1001-03 (Fla. 2006).
More substantively, “[m]itigating circumstances shall [include] the following:

App. 49

49

Filing # 92384598 E-Filed 07/11/2019 11:22:57 AM

RECEIVED, 07/11/2019 11:23:30 AM, Clerk, Supreme Court

IN THE SUPREME COURT OF FLORIDA
_____________________
:
RODNEY RENARD NEWBERRY,
:
Appellant,
:
v.
Case No. SC18-1133
:
STATE OF FLORIDA,
:
Appellee.
:
_____________________
On Appeal from the Circuit Court of the Fourth Judicial Circuit in
and for Duval County, Florida
_____________________
REPLY BRIEF OF APPELLANT
____________________
Andy Thomas
Public Defender
Second Judicial Circuit
Richard M. Bracey, III
Assistant Public Defender
Florida Bar No. 76419
Leon County Courthouse
301 S. Monroe St., Suite 401
Tallahassee, Florida 32301
(850) 606-1000
mose.bracey@flpd2.com
Counsel for Appellant

Appendix D
App. 50

TABLE OF CONTENTS
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii
ARGUMENT.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
I.

II.

Reversible Error Occurred When the Court Failed To Instruct the Jury To
Determine Beyond a Reasonable Doubt Whether the Aggravating Factors Were
Sufficient and Outweighed the Mitigating Circumstances Because Those
Determinations Are the Functional Equivalents of Elements, the Court
Overlooked Perry v. State, and the Error Was Fundamental. . . . . . . . . . . . . 1
A.

Determinations as to (1) whether the aggravating factors are sufficient
to justify the death penalty, and (2) whether those factors outweigh the
mitigating circumstances must be made beyond a reasonable doubt
because they are the functional equivalents of elements. . . . . . . . . . . 1

1.

Under Florida’s capital sentencing scheme, determinations as to (1)
whether the aggravating factors are sufficient to justify the death
penalty, and (2) whether those factors outweigh the mitigating
circumstances are the functional equivalents of elements because they
increase the penalty for first-degree murder.. . . . . . . . . . . . . . . . . . . . 1

2.

Even if determinations as to whether the aggravating factors are
sufficient and outweigh the mitigating circumstances are not purely
factual and involve normative judgment, they are subject to the
constitutional requirement of proof beyond a reasonable doubt. . . . . 4

B.

The court’s failure to instruct the jury to determine beyond a reasonable
doubt (1) whether the aggravating factors were sufficient to justify the
death penalty, and (2) whether those factors outweighed the mitigating
circumstances amounted to fundamental error.. . . . . . . . . . . . . . . . . . 9

Reversible Error Occurred When the Court Concluded the Impaired Capacity
Mitigating Circumstance Had Not Been Proven Because No Competent,
Substantial Evidence Refuted Dr. Bloomfield’s Testimony That Newberry’s
Capacity Was Substantially Impaired. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

App. 51

i

III.

Reversible Error Occurred When the Court Found Twenty-five Mitigating
Circumstances Established But “Not Mitigating” Because, Rather Than
Thoughtfully and Comprehensively Analyzing Those Circumstances, the Court
Summarily Addressed and Disposed of Them. . . . . . . . . . . . . . . . . . . . . . . 16
A.

Rather than thoughtfully and comprehensively analyzing the twenty-five
mitigating circumstances, the court summarily addressed and disposed
of them. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

B.

The court’s error in summarily addressing and disposing of the twentyfive mitigating circumstances should not be subjected to harmless error
review because that error precludes this Court from meaningfully
reviewing the court’s sentencing order. . . . . . . . . . . . . . . . . . . . . . . 23

IV.

Reversible Error Occurred When the Court Found Five Particular Mitigating
Circumstances Established But “Not Mitigating” Because, as a Matter of Law,
Those Circumstances Are Mitigating in Nature. . . . . . . . . . . . . . . . . . . . . . 25

V.

Whether Considered Individually or Cumulatively, the Court’s Errors–in
Concluding the Impaired Capacity Mitigating Circumstance Had Not Been
Proven, Failing To Thoughtfully and Comprehensively Analyze Twenty-Five
Other Mitigating Circumstances, and Finding Five of Those Circumstances To
Be Not Mitigating in Nature–Were Not Harmless. . . . . . . . . . . . . . . . . . . . 30

VI.

In Response to the State’s Additional Arguments, Newberry Relies on the
Arguments Raised in His Initial Brief. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35

CONCLUSION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35
CERTIFICATE OF SERVICE. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36
CERTIFICATE OF FONT AND TYPE SIZE.. . . . . . . . . . . . . . . . . . . . . . . . . . . . 36

App. 52

ii

ARGUMENT
I.

Reversible Error Occurred When the Court Failed To Instruct the Jury
To Determine Beyond a Reasonable Doubt Whether the Aggravating
Factors Were Sufficient and Outweighed the Mitigating Circumstances
Because Those Determinations Are the Functional Equivalents of
Elements, the Court Overlooked Perry v. State, and the Error Was
Fundamental.

A.

Determinations as to (1) whether the aggravating factors are sufficient to
justify the death penalty, and (2) whether those factors outweigh the
mitigating circumstances must be made beyond a reasonable doubt
because they are the functional equivalents of elements.
1.

Under Florida’s capital sentencing scheme, determinations as to (1)
whether the aggravating factors are sufficient to justify the death
penalty, and (2) whether those factors outweigh the mitigating
circumstances are the functional equivalents of elements because they
increase the penalty for first-degree murder.

The State essentially argues that, under Florida’s scheme, only a determination
as to whether at least one aggravating factor exists increases the penalty for firstdegree murder. [AB 23-24, 27-28] And it contends the determinations at issue are
simply sentencing considerations. [AB 22-23, 27, 29] In support of those claims, the
State attempts to analogize section 921.141, Florida Statutes, to the statute at issue
in Ring v. Arizona. [AB 23-24] It also cites Foster v. State, 258 So.3d 1248 (Fla.
2018), petition for cert. filed (U.S. May 10, 2019) (No. 18-860). [AB 23, 29]
First, the determinations at issue increase the penalty for first-degree murder
beyond the maximum sentence that may be imposed solely on the basis of
determinations that (1) the victim is dead, (2) the defendant caused the death, (3) the

App. 53

1

killing was premeditated or committed during a felony, and (4) aggravating factor(s)
exist. See Initial Brief pp. 31-36. Stated differently, under Florida’s scheme, a death
sentence “comes into play only as a result of,” United States v. Haymond, 139 S.Ct.
2369, 2381 (2019), determinations as to whether the aggravating factors are sufficient
and outweigh the mitigating circumstances.
Second, section 921.141 is not analogous to the Arizona statute at issue in
Ring. In short, unlike that statute, section 921.141 requires more than just the finding
of an aggravating factor to increase the maximum penalty for first-degree murder
from life without parole to death. See Initial Brief pp. 38-39.
Third, Foster is inconsistent with the Apprendi line of cases, especially Ring.
In Foster, Foster basically argued his right to due process had been violated because
determinations as to whether the aggravating factors were sufficient and outweighed
the mitigating circumstances had not been made beyond a reasonable doubt. 258
So.3d at 1250-52. But this Court rejected Foster’s argument, and reasoned:
Florida law prohibits first-degree murder, which is, by definition, a
capital crime. . . . [C]ontrary to Foster’s argument, it is not the Hurst [v.
State] findings that establish first-degree murder as a capital crime for
which the death penalty may be imposed. Rather, in Florida, firstdegree murder is, by its very definition, a capital felony.
Id. at 1251-52.
But that reasoning is inconsistent with the Apprendi line of cases, especially
Ring. As an initial matter, that reasoning overlooks that the “the relevant inquiry is

App. 54

2

one not of form, but of effect,” Apprendi v. New Jersey, 530 U.S. 466, 494 (2000).
Beyond that, in Ring, the Supreme Court rejected the foundational premise of
this Court’s reasoning in Foster–that first-degree murder is a “capital felony,” and
thus, the death penalty may, by definition, be imposed on any defendant convicted of
that offense. In short, there, the Arizona first-degree murder statute “specifie[d]
‘death or life imprisonment’ as the only sentencing options.” Ring v. Arizona, 536
U.S. 584, 603-04 (2002). But the Court concluded the statute “‘authorizes a
maximum penalty of death only in a formal sense,’ for it explicitly cross-references
the statutory provision requiring the finding of an aggravating circumstance before
imposition of the death penalty.” Id. at 604.
Similarly, in the present case, section 782.04 explicitly cross-references section
775.082, which then explicitly cross-references section 921.141. See Initial Brief pp.
32-33. And section 921.141 requires at least the finding of an aggravating factor
before imposition of the death penalty. See Initial Brief pp. 38-39. As a result,
though section 782.04 declares first-degree murder a “capital felony,” it “‘authorizes
a maximum penalty of death only in a formal sense.’”
Finally, this Court’s reasoning in Foster is inconsistent with this Court’s own
jurisprudence. For instance, this Court has long held aggravating circumstances must
be found beyond a reasonable doubt. See, e.g., Johnson v. State, 969 So.2d 938, 956
(Fla. 2007). Moreover, this Court has repeatedly indicated that determinations as to

App. 55

3

whether the aggravating factors are sufficient and outweigh the mitigating
circumstances are the functional equivalents of elements. See Initial Brief pp. 39-40.
Most importantly, in Perry v. State, 210 So.3d 630 (Fla. 2016), this Court indicated
those “findings” must be found beyond a reasonable doubt. See Initial Brief p. 43.
2.

Even if determinations as to whether the aggravating factors are
sufficient and outweigh the mitigating circumstances are not purely
factual and involve normative judgment, they are subject to the
constitutional requirement of proof beyond a reasonable doubt.

The State essentially contends that, even if the determinations at issue are the
functional equivalents of elements, they do not have to be made beyond a reasonable
doubt. [AB 22, 24-26] On that note, it appears to believe only purely factual
determinations, as opposed to determinations involving normative judgment, are
susceptible to proof beyond a reasonable doubt. [AB 22, 24-26] In support of its
claim, the State cites Kansas v. Carr, 136 S. Ct. 633 (2016), as well as a series of
non-binding decisions. [AB 24-26]
First, the United States Supreme Court has distinguished between “‘ultimate’
or ‘elemental’ fact[s]” and “‘evidentiary’ or ‘basic facts.’” United States v. Gauldin,
515 U.S. 506, 515 (1995). And it is “‘the factfinder’s responsibility at trial, based on
evidence . . . , to find the ultimate facts beyond a reasonable doubt.’” Id.
Second, keeping that in mind, some elements have multiple components. For
instance, some have both a purely factual component and an application-of-astandard-to-facts component. For instance, in Gauldin, the Government argued that
App. 56

4

“materiality” was “a ‘legal’ question, and that although [the Court] has sometimes
spoken of ‘requiring the jury to decide ‘all the elements of a criminal offense,’ the
principle actually applies to only factual components of the essential elements.’” Id.
at 511. But the Court rejected that argument, id. at 522-23, and reasoned:
Deciding whether a statement is “material” requires the determination
of at least two subsidiary questions of purely historical fact: (a) “what
statement was made?” and (b) “what decision was [the entity to which
the statement was made] trying to make?” The ultimate question: (c)
“whether the statement was material to the decision,” requires applying
the legal standard of materiality . . . to these historical facts. What the
government apparently argues is that the Constitution requires only that
(a) and (b) be determined by the jury, and that (c) may be determined by
the judge. [But] the application-of-legal-standard-to-fact sort of question
posed by (c), commonly called a “mixed question of law and fact,” has
typically been resolved by juries. Indeed, our cases have recognized in
other contexts that the materiality inquiry, involving as it does “delicate
assessments of the inferences a ‘reasonable [decisionmaker]’ would
draw from a given set of facts and the significance of those inferences
to him . . . [is] peculiarly on[e] for the trier of fact.”
Id. at 512 (emphasis added) (internal citations omitted).
Further, some elements have both a purely factual component and an
application-of-a-normative-standard-to-facts component. For instance, to convict a
defendant of obscenity, the jury must determine whether the “material depicts or
describes sexual conduct in a patently offensive way” and “taken as whole, lacks
serious literary, artistic, political or scientific value.” Fla. Std. Jury Instr. (Crim.) 24.5
(2018). Or, to convict a defendant of various crimes, the jury may have to determine
whether the defendant committed the crime out of duress or necessity, including

App. 57

5

whether the “harm that the defendant avoided . . . outweighed the harm caused by
committing the” crimes. Fla. Std. Jury Instr. (Crim.) 3.6(k) (2018). Finally, to
determine whether the especially heinous, atrocious, or cruel aggravating factor
exists, the jury must determine whether “the crime was conscienceless or pitiless.”
Fla. Std. Jury Instr. (Crim.) 7.11 (2018).
Third, all that being the case, determinations as to whether the aggravating
factors are sufficient and outweigh the mitigating circumstances have both a purely
factual component and an application-of-a-normative-standard-to-facts component.
In the context of the former component, jurors must determine the historical facts
underlying particular aggravating factors and mitigating circumstances. In the
context of the latter, jurors have to determine whether the existing aggravating factors
are sufficient and whether they outweigh the existing mitigating circumstances. That
inquiry, similar to the inquiry in Gauldin, asks jurors to “‘draw [inferences] from a
given set of facts,’” conduct “‘delicate assessments of’” those inferences, and
determine “‘the significance of those inferences,’” 515 U.S. at 512.
Fourth, keeping that in mind, the determinations at issue are susceptible to
proof beyond a reasonable doubt. As an initial matter, in this context, “proof beyond
a reasonable doubt” can be interpreted to mean two different things. “[O]ne
interpretation focuses on measuring the balance between the aggravating factors and
the mitigating factors.” State v. Rizzo, 833 A.2d 363, 377 (Conn. 2003). The “other

App. 58

6

interpretation focuses on the level of certitude required of the jury in determining that
the aggravating factors outweigh the mitigating factors.” Id.
Considering those two interpretations, the “fallacy of the argument [that the
determinations at issue are not susceptible to proof beyond a reasonable doubt] lies
in the failure to perceive the standard of proof in terms of the level of confidence
which the factfinder should have in the accuracy of his finding.” Ford v. Strickland,
696 F.2d 804, 879 (11th Cir. 1983) (Anderson, J., dissenting). More specifically,
assume “‘the relative ‘weight’ of aggravating circumstances and mitigating
circumstances is not susceptible to any quantum of proof,’” Ex parte Bohannon, 222
So.3d 525, 529-30 (Ala. 2016). Even then, the determinations at issue are susceptible
to a “‘subjective state of certitude,’” In re Winship, 397 U.S. 358, 364 (1970). In
short, jurors could reasonably ask themselves if they have an “abiding conviction,”
Fla. Std. Jury Instr. (Crim.) 3.7 (2018), that the aggravating factors are sufficient and
outweigh the mitigating circumstances.
Fifth, reflecting that fact, numerous states require determinations beyond a
reasonable doubt as to whether the aggravating factors are sufficient and/or outweigh
the mitigating circumstances. See, e.g., Ark. Code Ann. § 5-4-603(a) (2018); N.Y.
Crim. Proc. Law § 400.27(11)(a) (2018); Ohio Rev. Code Ann. § 2929.03(D)(2)
(2018); Tenn. Code Ann. § 39-13-204(g)(1)(B) (2018); Utah Code Ann. § 76-3207(5)(b) (2018); see also Rauf v. State, 145 A.3d 430, 481-82 (Del. 2016).

App. 59

7

Sixth, non-binding authority exists to support the State’s claim that the
determinations at issue do not have to be made beyond a reasonable doubt. See, e.g.,
Ex parte Bohannon, 222 So.3d at 529-33; Ford, 696 F.2d at 818. But those cases
were wrongly decided. In short, they fail to appreciate that (1) the determinations at
issue have a purely factual component and an application-of-a-normative-standard-tofacts component; (2) even if those determinations are not susceptible to a quantum
of proof, they are susceptible to a subjective state of certitude; and (3) instructing the
jury to make those determinations beyond a reasonable doubt furthers the interests
underlying the constitutional requirement of proof beyond a reasonable doubt, see
Initial Brief pp. 40-43.
Finally, Carr should not persuade this Court to reject Newberry’s argument.
As an initial matter, Carr determined that a failure–to instruct the jury, during the
“selection phase,” that mitigating circumstances “need not be proven beyond a
reasonable doubt”–did not violate the Eighth Amendment. 136 S. Ct. at 641-44. In
contrast, the issue here concerns whether a failure–to instruct the jury, during the
eligibility phase, to determine beyond a reasonable doubt whether the aggravating
factors were sufficient and outweighed the mitigating circumstances–violates the
Sixth and Fourteenth Amendments.
That said, in Carr, the Court mused that “the ultimate question whether
mitigating circumstances outweigh the aggravating circumstances is mostly a

App. 60

8

question of mercy,” as well as that it “would mean nothing . . . to tell the jury that the
defendants must deserve mercy beyond a reasonable doubt.” Id. at 642. But those
musings are dictum; prior to offering up those thoughts, the Court specifically noted
it was “[a]pproaching the question in the abstract, and without reference to our
capital-sentencing case law,” id.
Further, the Supreme Court’s dictum conflated a determination as to whether
aggravating factors outweigh mitigating circumstances with a determination as to
whether a death-eligible defendant deserves mercy from a death sentence. And those
two determinations differ in a crucial respect; in contrast to whether a defendant
deserves mercy, jurors could reasonably ask themselves if they have an “abiding
conviction” that the aggravating factors outweigh the mitigating circumstances.
B.

The court’s failure to instruct the jury to determine beyond a
reasonable doubt (1) whether the aggravating factors were sufficient
to justify the death penalty, and (2) whether those factors
outweighed the mitigating circumstances amounted to fundamental
error.

The State argues Newberry waived any fundamental error related to omitting
an instruction to make the determinations at issue beyond a reasonable doubt. [AB
19-21] More specifically, it contends he invited any such error because, prior to trial,
he made passing references to those determinations being made beyond a reasonable
doubt, but, at trial, he “explicitly agree[d] to use the standard instruction for
sufficiency and weighing.” [AB 20-21]

App. 61

9

Newberry did not invite the fundamental error at issue because his counsel
merely acquiesced to the erroneous instruction and never affirmatively relied on it.
“It is well-settled . . . that ‘a party may not make or invite error at trial and then take
advantage of the error on appeal.’” Boyd v. State, 200 So.3d 685, 702 (Fla. 2015).
Thus, fundamental error may be “waived under the invited error doctrine.” Universal
Ins. Co. of North America v. Warfel, 82 So.3d 47, 65 (Fla. 2012).
With that in mind, “[f]undamental error is waived where defense counsel
requests an erroneous instruction” or “affirmatively agrees to an improper
instruction.” Id. That said, the First District Court of Appeal has expressed
confusion as to the nature of the action required to qualify as “affirmative agreement.”
See Knight v. State, 267 So.3d 38 (Fla. 1st DCA 2018), review granted, SC18-309,
2018 WL 3097727 (Fla. June 25, 2018). But in the foundational case of Ray v. State,
this Court made clear “affirmative agreement” to an improper instruction involves
reliance on that instruction at trial–such as by drawing support from the instruction
during closing argument–by the party later raising the fundamental-error claim on
appeal. 403 So.2d 956, 961 (Fla. 1981).
With that in mind, fundamental error is not waived “‘where defense counsel
merely acquiesced to [the incomplete] jury instructions.” Lowe v. State, 259 So.3d
23, 50 (Fla. 2018). Instead, “defense counsel must be aware that an incorrect
instruction is being read and must affirmatively agree to, or request, the incomplete

App. 62

10

instruction.” Black v. State, 695 So.2d 459, 461 (Fla. 1st DCA 1997).
Applying those standards here, Newberry did not invite the fundamental error
related to omitting an instruction to determine beyond a reasonable doubt whether the
aggravating factors are sufficient and outweigh the mitigating circumstances. As an
initial matter, he did make passing references to those determinations being made
beyond a reasonable doubt in two pretrial motions filed months before trial. [R1 6,
185, 187, 1039-42, 1047-48] But, at that time, the standard instructions in capital
cases were in flux. See, e.g., In re: Standard Criminal Jury Instruction in Capital
Cases, 214 So.3d 1236, 1236-37 (Fla. 2017). And both of Newberry’s motions
explicitly referenced that uncertainty. [R1 5-6, 170]
Further, at trial, the proposed instructions were prepared by the State and were
based on the then-interim standard instructions. [R2 1098-99, 1144-45] Newberry
suggested some edits to the proposed instructions. [R1 581-95; R2 1098-99] But none
of those edits related to whether the determinations at issue had to be made beyond
a reasonable doubt. [R1 581-95; R2 1098-99] Moreover, during the charge
conference, there was no consideration or discussion of that issue. [R2 1098-1166]
In short, Newberry’s counsel never requested the court omit an instruction to
make the determinations at issue beyond a reasonable doubt. He also never
affirmatively agreed to such an omission. In particular, Newberry’s counsel never
“affirmatively relied on that [omission] as evidenced by argument to the jury or other

App. 63

11

affirmative action,” Ray, 403 So.2d at 961. Ultimately, Newberry’s counsel “merely
acquiesced” to the incomplete instruction. See, e.g., Burns v. State, 170 So.3d 90, 93
n.3 (Fla. 1st DCA 2015); Williams v. State, 145 So.3d 997, 1003 (Fla. 1st DCA 2014).
II.

Reversible Error Occurred When the Court Concluded the Impaired
Capacity Mitigating Circumstance Had Not Been Proven Because No
Competent, Substantial Evidence Refuted Dr. Bloomfield’s Testimony
That Newberry’s Capacity Was Substantially Impaired.
The State argues competent, substantial evidence refuted Bloomfield’s

testimony. [AB 30-35] It points to (1) Dr. Gold’s testimony; (2) evidence that
Newberry “procured” Anderson’s mother’s car, “named” the target, and was “in
charge” of the crime; and (3) evidence that Newberry “demonstrated consciousness
of guilt by running from the police months after the murder.” [AB 33-35] It also
appears to believe the present case is analogous to cases such as Heyne v. State, 88
So.3d 113 (Fla. 2012), and Hoskins v. State, 965 So.2d 1 (Fla. 2007).
First, competent, substantial evidence is evidence “‘sufficiently relevant and
material that a reasonable mind would accept it as adequate to support the conclusion
reached.’” Dausch v. State, 141 So.3d 513, 517-18 (Fla. 2014) (quoting De Groot v.
Sheffield, 95 So.2d 912, 916 (Fla. 1957)).
Second, applying that standard here, Gold’s testimony did not amount to
competent, substantial evidence to support the court’s rejection of the impaired
capacity mitigating circumstance.

As an initial matter, Bloomfield testified

Newberry’s capacity was substantially impaired by his low intellectual functioning
App. 64

12

